LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 1, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-631:

WILLIAM P. BARR, ATTORNEY GENERAL, ET AL. V. AMERICAN
ASSOCIATION OF POLITICAL CONSULTANTS, INC., ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Institute for
Free Speech, on April 1, 2020, I caused service to be made pursuant to Rule 29 on the
following counsel for the Petitioners and Respondents:
PETITIONERS:
The Honorable Noel Francisco
Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov

RESPONDENTS:
Roman Martinez V
Latham & Watkins, LLP
555 Eleventh Street, NW
Washington, DC 20004
202-637-3377
roman.martinez@lw.com

This service was effected by depositing three copies of the Brief of Amicus Curiae
Institute for Free Speech in an official “first class mail” receptacle of the United States
Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 1st day of April 2020.

